HHS/OIG, Audit - "Review of the Centers for Medicare & Medicaid Services
Grant Closeout Procedures," (A-02-06-02001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of the Centers for Medicare & Medicaid Services Grant Closeout Procedures," (A-02-06-02001)
April 21, 2008
Complete
Text of Report is available in PDF format (3.47 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We found that the 197 grants that the Departments Division
of Payment Management (DPM) had identified as eligible for closeout as of March
31, 2006, remained open in the Payment Management System for several reasons.
DPM is responsible for recording grant activity in the payment system and
closing grants after receiving closeout instructions from CMSs Office of
Financial Management.  CMSs program offices, the Center for Medicaid & State
Operations and the Office of Acquisition and Grants Management, are responsible
for initiating closeout of grants.  As a general rule, grants must be closed
within 180 days after the end of the grant period (the cutoff date).
For 33 grants with unexpended balances totaling $1.2 billion, the program
offices did not initiate closeout because they were awaiting the results of
legislative proposals to use the expired funds for other purposes or because
they lacked an adequate monitoring system to ensure that grants were closed by
the cutoff date.  For 164 grants with unexpended balances totaling $104.2
million, the program offices did initiate closeout.  However, DPM did not
complete closeout primarily because of differences (sometimes of $1 or less)
among the grant award, expenditure, and drawdown amounts in the payment system.
We recommended that CMS (1) ensure that the program offices close grants by the
cutoff date by establishing an adequate monitoring system, (2) deobligate any
unexpended balances on grants open past the cutoff date, and (3) work with DPM
to establish a dollar threshold for differences in payment system balances and
procedures for closing grants with differences below the threshold.  CMS
generally concurred with our recommendations.